APPENDIX

A

/

Case: 20-3124

Document: 9-2

Filed: 09/01/2020

No. 20-3124

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

WILLIAM ECHOLS,
Petitioner-Appellant,
v.
DOUGLAS FENDER, Warden,
Respondent-Appellee.

(2 of 5)

Page: 1

)
)
)
)
)
)
)
)
)
)

Sep 01,2020
DEBORAH S. HUNT, Clerk

ORDER

Before: BUSH, Circuit Judge.

William Echols, an Ohio prisoner proceeding pro se, appeals the district court’s judgment
denying his petition for a writ of habeas corpus brought pursuant to 28 U.S.C. § 2254. Echols has
applied for a certificate of appealability (COA). See Fed. R. App. P. 22(b). He also moves to
proceed in forma pauperis on appeal.
In 2014, a jury convicted Echols of two counts of rape, in violation of Ohio Revised Code
§ 2907.02(A)(2), and two counts of kidnapping, in violation of Ohio Revised Code
§ 2905.01(A)(4). The convictions stemmed from two separate incidents involving two different
women in 1994 and 1999, which were linked to Echols after DNA testing was conducted in 2012.
The Ohio Court of Appeals affirmed the convictions, but it remanded the case to the trial court for
the purpose of merging the sentencing for the kidnapping and rape counts relating to one of the
victims. Ohio v. Echols, No. 102504, 2015 WL 8484088 (Ohio Ct. App. Dec. 10, 2015). Echols,
acting pro se, filed a motion for leave to file a delayed appeal in the Ohio Supreme Court, which
rejected that motion and dismissed the appeal. State v. Echols, 49 N.E.3d 319 (Ohio 2016) (table).
Upon resentencing, the trial court merged the kidnapping and rape counts, as instructed by the
appellate court, and imposed an aggregate sentence of thirty-one years of imprisonment. Echols

Case: 20-3124

Document: 9-2

Filed: 09/01/2020

Page: 2

No. 20-3124
-2did not appeal his new sentence. He moved to vacate or set aside his conviction or sentence in the
trial court, but the petition was denied. He did not appeal that denial.
Echols next filed the § 2254 petition that is currently before the court. He raised the same
claims that he raised on direct appeal, specifically that: (1) he was denied a fair trial due to the
trial court’s denial of his motion for separate trials for the separate victims; (2) his right to confront
witnesses against him was violated by the admission of medical records concerning one victim,
who did not testify because she was deceased at the time of trial; (3) insufficient evidence
supported his convictions concerning that victim; and (4) the rape and kidnapping offenses should
have been merged for sentencing purposes. A magistrate judge recommended that the petition be
denied in its entirety because his claims were procedurally defaulted. Over Echols’s objections,
the district court adopted the report and recommendation, dismissed the petition, and declined to
issue a COA.
Echols moves this court for a COA, arguing that the district court abused its discretion by
not “fully considering the equitable tolling [regarding his Ohio Supreme Court filing] associated
with this case,” and by failing to conduct an evidentiary hearing to address alleged discrepancies
in the state court record.
To obtain a COA, an applicant must make “a substantial showing of the denial of a
constitutional right.”

28 U.S.C. § 2253(c)(2).

To satisfy this standard, a petitioner must

demonstrate “that jurists of reason could disagree with the district court’s resolution of his
constitutional claims or that jurists could conclude the issues presented are adequate to deserve
encouragement to proceed further.” Miller-El v. Cockrell, 537 U.S. 322, 327 (2003). When the
district court has denied a petition on procedural grounds, a petitioner must show “that jurists of
reason would find it debatable whether the petition states a valid claim of the denial of a
constitutional right and that jurists of reason would find it debatable whether the district court was
correct in its procedural ruling.” Slack v. McDaniel, 529 U.S. 473, 484 (2000).
“A habeas petitioner procedurally defaults a claim if: (1) the petitioner failed to comply
with a state rule; (2) the state enforced the rule against the petitioner; and (3) the rule is an ‘adequate

(3 of 5)

Case: 20-3124

Document: 9-2

Filed: 09/01/2020

(4 of 5)

Page: 3

No. 20-3124
-3 and independent’ state ground foreclosing review of a federal constitutional claim.” Bickham v.
Winn, 888 F.3d 248, 251 (6th Cir. 2018) (quoting Willis v. Smith, 351 F.3d 741, 744 (6th Cir.
2003)). To overcome a procedural default, a petitioner must show “cause for the default and actual
prejudice as a result of the alleged violation of federal law, or demonstrate that failure to consider
the claims will result in a fundamental miscarriage of justice.” Coleman v. Thompson, 501 U.S.
722, 750 (1991). A fundamental miscarriage of justice requires a showing of actual innocence.
See Dretke v. Haley, 541 U.S. 386, 393 (2004).
The district court determined that Echols’s claims were procedurally defaulted because he
did not raise them in a timely appeal to the Ohio Supreme Court, and the Ohio Supreme Court
denied his motion for a delayed appeal, which is a procedural ruling. See Bonilla v. Hurley, 370
F.3d 494, 497 (6th Cir. 2004) (per curiam). The district court further found that Echols had failed
to show cause or prejudice for his failure to file a timely appeal because he had acknowledged
receiving a copy of the appellate court’s decision eight days after it was issued, and thus, he had
ample time to file an appeal within the required forty-five-day period, see Ohio S. Ct. Prac. R.
7.01(A)(1), despite having been transferred to a different prison and not receiving sufficient
assistance from other inmates. Echols does not dispute this determination in his COA application,
and reasonable jurists could not debate that he procedurally defaulted his claims.
The thrust of Echols’s argument in his application is that his procedural default should be
excused because excusing the default would result in a fundamental miscarriage of justice. To
qualify for this exception, however, he must present “new reliable evidence” of factual innocence,
not mere legal insufficiency. Schlup v. Delo, 513 U.S. 298, 324 (1995). The district court found
that Echols had not presented any such new evidence of his actual innocence, and he similarly fails
to make such a showing in his COA application. Reasonable jurists could not debate the district
court’s conclusion that a fundamental miscarriage of justice did not occur here.

Because

reasonable jurists could not debate that Echols’s claims were procedurally defaulted, he was not
entitled to an evidentiary hearing.

Case: 20-3124

Document: 9-2

Filed: 09/01/2020

Page: 4

No. 20-3124
-4Accordingly, the application for a COA is DENIED. The motion to proceed in forma
pauperis on appeal is DENIED as moot.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

(5 of 5)

APPENDIX

Case: l:17-cv-00859-SL Doc #: 16 Filed: 12/09/19 1 of 1. PaqelD #: 1209

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION
WILLIAM ECHOLS,
PETITIONER,
vs.
BRIGHAM SLOAN, Warden,
RESPONDENT.

)
)
)
)
)
)
)
)
)
)
)
)

CASE NO. L17CV859
JUDGE SARA LIOI
JUDGMENT ENTRY

For the reasons set forth in the contemporaneously filed memorandum opinion and order,
the report and recommendation of the magistrate judge (Doc. No. 13) is ACCEPTED and the
petition for a writ of habeas corpus (Doc. No. 1) is DISMISSED. Further, for the same reasons,
the Court CERTIFIES that an appeal from this decision could not be taken in good faith, and that
there is no basis upon which to issue a certificate of appealability. 28 U.S.C. § 2253; Fed. R.
App. P. 22(b).
IT IS SO ORDERED.

Dated: December 9, 2019
HONORABLE SARA LIOI
UNITED STATES DISTRICT JUDGE

